Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




STATE MEDICAID PROGRAM
EFFORTS TO CONTROL COSTS
     FOR DISPOSABLE
  INCONTINENCE SUPPLIES




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                        January 2014
                       OEI-07-12-00710
EXECUTIVE SUMMARY: STATE MEDICAID PROGRAM EFFORTS TO
CONTROL COSTS FOR DISPOSABLE INCONTINENCE SUPPLIES
OEI-07-12-00710

WHY WE DID THIS STUDY

In 2012, fee-for-service State Medicaid programs reported spending $266 million on nine
specific types of disposable incontinence supplies (e.g., diapers). Many State legislatures
have passed legislation directing States to seek opportunities to reduce the costs of health
care goods—such as incontinence supplies—and services. Since 2009, the Office of
Inspector General has identified ensuring the integrity of Federal health care program
payment methodologies as a top management challenge for the Department of Health and
Human Services. In addition, there have been a number of fraud cases involving
disposable incontinence supplies.

HOW WE DID THIS STUDY

From each State Medicaid program (50 States and the District of Columbia), we collected
2012 data on the claim volumes and fee-schedule reimbursement rates for nine
Healthcare Common Procedure Coding System codes for commonly used disposable
incontinence supplies. We conducted a survey of each State Medicaid program to
determine how many States implemented or attempted to implement cost-control
measures, such as competitive bidding, for such supplies. We calculated the amount that
Medicaid programs would save if the median competitive bidding rate were used. For
the five States that had implemented competitive bidding programs, we conducted
structured telephone interviews with State Medicaid program staff to obtain further
information about these programs.

WHAT WE FOUND

All State Medicaid programs implemented cost-control measures—such as quantity
limitations or reductions in fee-schedule amounts—for incontinence supplies. Five State
Medicaid programs implemented competitive bidding programs. These programs
reported savings of up to 50 percent. If State Medicaid programs had paid suppliers at
the median competitive bidding rate, they could have paid 23 percent less, saving
$62 million. Other positive outcomes resulted from competitive bidding, such as
increased beneficiary access to supplies, increased product quality, and State Medicaid
program control of providing supplies. However, States reported encountering initial
challenges with their competitive bidding programs, and six States attempted to establish
competitive bidding but did not fully implement it.

WHAT WE RECOMMEND

We recommend that the Centers for Medicare & Medicaid Services (CMS) encourage
State Medicaid programs to seek further cost savings for disposable incontinence
supplies. CMS concurred with our recommendation.
                   TABLE OF CONTENTS

                   Objectives ....................................................................................................1 

                   Background ..................................................................................................1 

                   Methodology ................................................................................................4 

                   Findings........................................................................................................7 

                              All State Medicaid programs implemented cost-control measures
                              for incontinence supplies .................................................................7 

                              State Medicaid programs could realize significant cost savings
                              for incontinence supplies ...............................................................10 

                              State Medicaid programs reported both positive outcomes and
                              initial challenges with respect to competitive bidding...................11

                   Conclusion and Recommendation .............................................................14 

                   Agency Comments and Office of Inspector General Response.................15 

                   Appendixes ................................................................................................16 

                              A: State Medicaid Program Rates for HCPCS Codes T4521, 

                              T4522, T4523, T4524, and T4529 .................................................16 

                              B: State Medicaid Program Rates for HCPCS Codes T4530, 

                              T4533, T4535, and T4543..............................................................18 

                              C: Agency Comments ...................................................................20 

                   Acknowledgments......................................................................................21 





State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)
                   OBJECTIVES
                   To determine:
                   1.	 the extent to which State Medicaid programs have implemented
                       measures to control costs for incontinence supplies,
                   2.	 the potential savings in 2012 for State Medicaid programs if the
                       median competitive bidding rate had been used, and
                   3.	 the outcomes of cost-control measures for incontinence supplies, as
                       well as approaches implemented to reduce initial challenges.

                   BACKGROUND
                   In 2012, fee-for-service State Medicaid programs reported spending
                   $266 million on nine specific types of disposable incontinence supplies
                   (e.g., diapers). Many State legislatures have passed legislation directing
                   States to seek opportunities to reduce the costs of health care goods and
                   services through contracting processes such as competitive bidding. To
                   control costs, other States have reduced either the reimbursement rates or
                   the maximum quantities of incontinence supplies allowed.
                   Since 2009, the Office of Inspector General (OIG) has identified ensuring
                   the integrity of Federal health care program payment methodologies as a
                   top management challenge for the Department of Health and Human
                   Services.1 In addition, there have been a number of fraud cases involving
                   disposable incontinence supplies. In 2013, a Maryland supplier pleaded
                   guilty to submitting and collecting claims for reimbursement for over
                   $200,000 of incontinence supplies that were never delivered.2 In 2012, a
                   supplier pleaded guilty to Federal charges stemming from the submission
                   of nearly $45,000 in claims to the District of Columbia Medicaid program
                   for diapers, disposable underpads, and gloves that were never actually
                   provided.3




                   1
                     OIG, Top Management and Performance Challenges. Accessed at
                   http://oig.hhs.gov/reports-and-publications/top-challenges/2013/ on May 8, 2013.
                   2
                     U.S. Attorney’s Office, Maryland Business Owner Pleads Guilty to Health Care Fraud
                   In Scheme Involving More Than $200,000 in False Medicaid Claims, April 23, 2013.
                   Accessed at http://www.justice.gov/usao/dc/news/2013/apr/13-141.html on July 3, 2013.
                   3
                     U.S. Attorney’s Office, Maryland Man Pleads Guilty to Medicaid Fraud Involving
                   Power Wheelchairs and Incontinence Supplies, October 11, 2012. Accessed at
                   http://www.fbi.gov/washingtondc/press-releases/2012/maryland-man-pleads-guilty-to-
                   medicaid-fraud-involving-power-wheelchairs-and-incontinence-supplies on
                   November 1, 2012.

State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)   1
                   Medicaid Coverage of Disposable Incontinence Supplies
                   A State Medicaid plan must include home health services for individuals
                   who are entitled to nursing facility services.4 However, States may not
                   make the need for institutional care a condition for receiving home health
                   services.5 Federal regulation states that medical supplies, equipment, and
                   appliances suitable for use in the home are required home health services.6
                   Disposable incontinence supplies are considered medical supplies.
                   Table 1 lists Healthcare Common Procedure Coding System (HCPCS)
                   codes and corresponding descriptions of disposable incontinence supplies.
                   Table 1: Disposable Incontinence Supplies

                       HCPCS
                                                                                                   Description
                       Code

                       T4521                      Adult-sized disposable incontinence product, brief/diaper, small

                       T4522                   Adult sized-disposable incontinence product, brief/diaper, medium

                       T4523                      Adult sized-disposable incontinence product, brief/diaper, large

                       T4524                Adult sized disposable-incontinence product, brief/diaper, extra large

                       T4529        Pediatric-sized disposable incontinence product, brief/diaper, small/medium

                       T4530                  Pediatric-sized disposable incontinence product, brief/diaper, large

                       T4533                            Youth-sized disposable incontinence product/brief/diaper

                       T4535                   Disposable liner/shield/guard/pad/undergarment, for incontinence

                       T4543                               Disposable incontinence product, brief/diaper, bariatric
                   Source: Carol J. Buck, 2013 HCPCS Level II, 2013, pp. 339–340.



                   Although State standards for the coverage of disposable incontinence
                   supplies may differ, States require that the beneficiary’s physician
                   prescribe supplies for a medical condition. Physicians’ prescriptions
                   indicate the quantity of supplies needed on a periodic basis, which is
                   typically monthly.

                   Medicaid Payments for Disposable Incontinence Supplies
                   States have the option to provide Medicaid services to eligible
                   beneficiaries on a fee-for-service basis or through managed-care
                   arrangements. In a fee-for-service model, beneficiaries can receive their
                   supplies from any participating supplier who submits claims to the State
                   for reimbursement. Many fee-for-service State Medicaid programs set a
                   maximum reimbursement rate for incontinence supplies using a fee


                   4
                     Social Security Act (SSA) § 1902(a)(10)(D), 42 U.S.C. § 1396a(a)(10)(D).

                   5
                     42 CFR § 441.15(c). 

                   6
                     42 CFR § 440.70(b)(3). 


State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)                2
                   schedule; a few programs reimburse suppliers based on a percentage of
                   cost or customary charges. In a managed-care model, State Medicaid
                   programs pay managed-care plans a fixed rate per Medicaid beneficiary in
                   exchange for services included in the plan and do not reimburse separately
                   for incontinence supplies.
                   Cost-Control Measures for Incontinence Supplies
                   The SSA requires States to “assure that payments are consistent with
                   efficiency, economy, and quality of care.”7
                   Medicaid Cost-Control Measures. State Medicaid programs may use a
                   variety of methods to control expenditures for incontinence supplies.
                   First, States may impose limits on the quantity of supplies allowed per
                   month. Secondly, State Medicaid programs may reduce fee-schedule rates
                   to control expenditures for incontinence supplies. This measure reduces
                   the maximum reimbursement rate paid for supplies, but maintains
                   beneficiaries’ access to any supplier willing to provide supplies at the
                   stated rates.
                   Lastly, State Medicaid programs may seek to lower costs for incontinence
                   supplies by implementing a competitive bidding process. In competitive
                   bidding, State Medicaid programs solicit bids from vendors willing to
                   provide supplies to Medicaid beneficiaries. Vendors submit bids
                   representing the lowest reimbursement that they will accept. State
                   Medicaid programs evaluate the bids and determine the winning suppliers.
                   The winning suppliers’ bid prices become the State’s fee-schedule rates.
                   Beneficiaries must receive their supplies from the winning suppliers.
                   Federal regulations require State Medicaid programs to make assurances,
                   in the form of a certification to the Centers for Medicare & Medicaid
                   Services (CMS), that adequate supplies are available to beneficiaries under
                   the competitive bidding process.8 State Medicaid programs may not
                   implement competitive bidding until CMS makes a determination and
                   issues a certification to the State.9




                   7
                     SSA § 1902(a)(30)(A), 42 U.S.C. § 1396a(a)(30)(A).
                   8
                     SSA § 1915(a)(1)(B) and 42 CFR § 431.54(d).
                   9
                     42 CFR § 431.51(d)(2).

State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)   3
                   Competitive Bidding in Medicare. The Medicare Prescription Drug,
                   Improvement, and Modernization Act of 2003 required that Medicare
                   replace the fee-schedule payment methodology for certain durable medical
                   equipment, prosthetics, orthotics, and supplies (DMEPOS) with a
                   competitive bid process.10, 11 In April 2012, CMS released the results from
                   the first year of the competitive bidding program, showing that the
                   program had reduced DMEPOS expenditures by 42 percent. CMS found
                   that real-time claims monitoring and subsequent followup with
                   beneficiaries indicated that access to necessary and appropriate items and
                   supplies was maintained.12
                   Related Reports
                   In 2011, GAO released a report exploring the issues that CMS could face
                   if it purchased DME directly from manufacturers.13 The report also
                   described how the Department of Veterans Affairs and certain State
                   Medicaid programs reduced their spending on a variety of types of DME
                   through competitive bidding. The report described the implications of
                   using these purchasing models in Medicare.

                   METHODOLOGY
                   Scope
                   This evaluation focuses on State Medicaid programs’ use of cost-control
                   measures for incontinence supplies and the outcomes achieved from those
                   measures. We included data from the 49 State Medicaid programs that
                   paid claims for incontinence supplies on a fee-for-service basis.14 To
                   calculate potential savings, we compared each State’s actual expenditures
                   for 2012 to what would have been paid using the median rate of the States
                   that implemented competitive bidding. We did not determine the validity
                   of the diagnoses that led to the prescription for incontinence supplies or
                   the medical necessity of incontinence supplies for the beneficiary.



                   10
                      Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                   P.L. 108-173, § 302(b), 117 Stat. 2066, 2224–29 (Dec. 8, 2003). 

                   11
                      We note that Medicare does not consider disposable incontinence supplies to be 

                   durable medical equipment (DME); therefore, these supplies are not included in 

                   Medicare’s competitive bidding program.

                   12
                      CMS, Competitive Bidding Update—One Year Implementation Update, p. 5, 

                   April 17, 2012. Accessed at http://www.cms.gov/Medicare/Medicare-Fee-for-Service-
                   Payment/DMEPOSCompetitiveBid/Downloads/Competitive-Bidding-Update-One-Year-
                   Implementation.pdf on April 27, 2012. 

                   13
                      GAO, Medicare: Issues for Manufacturer-Level Competitive Bidding for Durable
                   Medical Equipment, GAO-11-337R, May 31, 2011. 

                   14
                      South Dakota and Tennessee reported that they did not pay fee-for-service claims for 

                   incontinence supplies. 


State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)    4
                   Data Collection
                   Request for Data. From each State Medicaid program, we collected
                   summary information on the 2012 claim volumes (from State Medicaid
                   management information systems) and fee-schedule reimbursement rates
                   for nine HCPCS codes for commonly used disposable incontinence
                   supplies. We received responses from all 51 State Medicaid programs;
                   however, we excluded 2 State Medicaid programs—Tennessee and
                   South Dakota—from our analysis. The Tennessee State Medicaid program
                   responded that because 100 percent of its beneficiaries were enrolled in
                   managed-care plans, it did not pay for incontinence supplies on a
                   fee-for-service basis. The South Dakota State Medicaid program
                   responded that it did not pay for incontinence supplies on a fee-for-service
                   basis in 2012. We note that South Dakota provides incontinence supplies
                   through a waiver program, the Assistive Daily Living Services Program.
                   Surveys. We surveyed each of the State Medicaid programs (50 States and
                   the District of Columbia) to determine how many States implemented or
                   attempted to implement cost-control measures for incontinence supplies.
                   We asked questions about the cost-control measures in effect during 2012.
                   Telephone Interviews of States with Competitive Bidding Programs. For
                   the five State Medicaid programs that implemented competitive bidding
                   (Indiana, Maine, Michigan, New Hampshire, and Wisconsin), we
                   conducted structured telephone interviews with State Medicaid program
                   staff to gather more in-depth information about their experiences. We
                   asked questions about:
                   	 practices that led to successful implementation and any barriers that
                      needed to be overcome,
                   	 the cost savings achieved and other positive outcomes that resulted,
                      and
                   	 initial challenges and approaches that State Medicaid programs used to
                      reduce these challenges.
                   Analysis
                   Using each State Medicaid program’s summary information on claim
                   volumes for each HCPCS code, we calculated the amount that Medicaid
                   programs would have saved if the median competitive bidding rate were
                   used. For any State Medicaid program that did not report a specific




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)   5
                   fee-schedule rate for a given type of supply, we imputed a rate by dividing
                   total expenditures for the supply by the total quantity reimbursed.15
                   We analyzed the survey responses to determine the extent to which State
                   Medicaid programs implemented cost-control measures for incontinence
                   supplies and the types of cost-control measures. We analyzed the
                   telephone interview responses to describe States’ competitive bidding
                   programs, including initial challenges in implementation and outcomes.
                   Limitations
                   We conducted telephone interviews and requested documentation of
                   savings from each of the five State Medicaid programs that implemented
                   competitive bidding. However, only Michigan, New Hampshire, and
                   Wisconsin provided savings documentation. Indiana officials reported
                   that they could not separate savings for incontinence supplies from savings
                   for other items in its competitive bidding program. Maine officials
                   reported that they did not track savings associated with the State’s
                   competitive bidding program.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




                   15
                     We imputed rates for 35 State/HCPCS code combinations out of a total of 441 rate
                   comparisons, or 8 percent. All State Medicaid programs that implemented competitive
                   bidding reported specific fee-schedule rates; therefore, we did not need to impute rates
                   for these States.

State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)        6
                   FINDINGS
                   All State Medicaid programs implemented cost-control
                   measures for incontinence supplies
                   As of 2012, all State Medicaid programs had implemented one or more
                   cost-control measures for incontinence supplies—all State Medicaid
                   programs implemented quantity limitations, 21 States reduced their
                   fee-schedule amounts, and five States implemented competitive bidding
                   programs.
                   All State Medicaid programs implemented quantity limitations
                   Most often, States established maximum monthly quantity limits for each
                   HCPCS code. For example, for each of the nine types of supplies
                   reviewed, the Idaho Medicaid program set a limit of 240 units per month
                   and the Alaska Medicaid program set a limit of 500 units per month.
                   Some States had differing limits for the same HCPCS code depending on
                   the age of the beneficiary. For example, in Maryland, the monthly limit
                   for small adult diapers (T4521) was 240 units for beneficiaries aged 3 to
                   15 and 180 units for beneficiaries aged 16 and older.
                   Less commonly, States implemented quantity limitations by establishing
                   maximum dollar amounts for supplies per month. Two States—Arkansas
                   and Kansas—used this method. The Arkansas Medicaid program set a
                   monthly limit of $130 for incontinence supplies across all HCPCS codes.
                   The Kansas Medicaid program set limits both on quantity and on dollar
                   amount; it set a limit of six units per day, not to exceed $150 per month.
                   Regardless of the type of quantity limitation, State Medicaid programs
                   may—on the basis of an individual beneficiary’s medical necessity—
                   appropriately authorize a quantity of incontinence supplies exceeding the
                   established limit.
                   Twenty-one State Medicaid programs reduced fee-schedule
                   reimbursement amounts
                   Twenty-one of forty-nine State Medicaid programs reported reducing
                   fee-schedule reimbursement amounts for incontinence supplies between
                   2000 and 2012. For example, in March 2011, the Connecticut Medicaid
                   program reviewed fee-schedule rates of nearby States and reduced its rates
                   to be consistent with those States. The Louisiana Medicaid program
                   reduced its fee-schedule reimbursement amounts twice—once in January
                   2010 and again in February 2012. Other State Medicaid programs reduced
                   their fee-schedule amounts by a certain percentage across HCPCS codes.




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)   7
                   The Nebraska Medicaid program reduced its fee-schedule amounts by
                   2.5 percent in July 2011, and the Alabama Medicaid program reduced its
                   fee-schedule amounts by 10 percent in June 2012.
                   Five State Medicaid programs implemented competitive
                   bidding programs
                   As of 2012, five State Medicaid programs had implemented competitive
                   bidding programs for incontinence supplies: Indiana, Maine, Michigan,
                   New Hampshire, and Wisconsin. Officials from these States reported that
                   the reasons for seeking competitive bidding programs included Statewide
                   initiatives directing innovative purchasing methods, saving money on
                   incontinence supplies, and building on successful competitive bidding for
                   other types of DME (e.g., eyeglass frames and lenses) that resulted in cost
                   savings for their Medicaid programs.
                   States Reported a Variety of Program Features. State Medicaid programs
                   obtained bids for incontinence supplies in two ways. Four programs—
                   Indiana, Maine, Michigan, and New Hampshire—developed Requests for
                   Proposals to solicit bids from interested vendors. In contrast, the
                   Wisconsin State Medicaid program coordinated with the Michigan State
                   Medicaid program to add the Wisconsin program to Michigan’s existing
                   vendor contract. The Maine, Michigan, New Hampshire, and Wisconsin
                   State Medicaid programs awarded contracts to one vendor per State.
                   Indiana initially awarded contracts to three vendors, but subsequently
                   ended its contract with one of the three.
                   Beneficiaries obtained incontinence supplies through mail delivery or
                   local suppliers. For three State Medicaid programs (Indiana, Michigan,
                   and Wisconsin), beneficiaries ordered directly from vendors and received
                   their supplies through mail delivery. In Maine and New Hampshire,
                   vendors shipped supplies directly to beneficiaries, or beneficiaries
                   received them from local suppliers (i.e., stores located near beneficiaries’
                   homes). In such cases, local suppliers purchased supplies from their
                   State’s contracted vendor at guaranteed rates and then submitted claims to
                   receive reimbursement from their State’s Medicaid program. Table 2
                   shows selected features of each State’s competitive bidding program.




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)   8
                   Table 2: Selected Features of Competitive Bidding Programs
                                                    Number                                           Contracting
                                      Year                                          Distribution
                                                          of                                       Used for DME
                                   Contract                             Mail           Through
                     State                          Vendor                                            Other Than
                                      First                         Delivery               Local
                                                    Awards                                          Incontinence
                                   Awarded                                            Suppliers
                                                     in 2012                                            Supplies
                     IN                   2008                2             Yes              No              Yes

                     ME                   2003                1             Yes              Yes             Yes

                     MI                   1997                1             Yes              No              Yes

                     NH                   2009                1             Yes              Yes             Yes

                     WI                   2009                1             Yes              No              Yes

                   Source: OIG analysis of structured telephone interviews, 2013.



                   States Reported Approaches That Assisted With Successful Implementation
                   of Competitive Bidding. Officials from each of the five State Medicaid
                   programs that implemented competitive bidding told us that engaging
                   suppliers and stakeholder groups throughout the process was helpful to
                   successful implementation. Prior to making awards, State officials
                   stressed the importance of providing suppliers with clear information
                   about the competitive bidding process, such as the specific HCPCS codes
                   included in the contract and how shipping costs would be handled. State
                   officials also found it helpful to continue engagement after bids were
                   awarded. For example, the New Hampshire Medicaid program holds
                   meetings with its supplier association at least annually. New Hampshire
                   also surveyed beneficiaries at the end of the first year of competitive
                   bidding to gauge their satisfaction with the quality of supplies they
                   received.
                   States Reported Savings of Up to 50 Percent. Michigan reported that its
                   contracted reimbursement rates represented discounts of approximately
                   50 percent from its previous fee schedules, with an estimated 1-year
                   savings of $16 million. New Hampshire’s contracted reimbursement rates
                   were 47 percent less than those prior to competitive bidding, with savings
                   of over $1 million in the first 16 months of the program. Wisconsin
                   reduced monthly expenditures per beneficiary by an average of 15 percent
                   from FY 2010 to FY 2012.




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)        9
                    State Medicaid programs could realize significant cost
                    savings for incontinence supplies
                    Although all States implemented cost-control measures for incontinence
                    supplies, additional cost savings may be possible.
                    For eight of the nine supplies reviewed, median competitive
                    bidding rates were lower than rates in States without
                    competitive bidding programs
                    Overall, there was less variability in rates among States that implemented
                    competitive bidding than among States that had not. For eight of the nine
                    supplies we reviewed, Kentucky had the highest rates among States
                    without competitive bidding programs. Table 3 shows the range and
                    median rates for the nine supplies reviewed for States that implemented
                    competitive bidding and States that did not.
                    Table 3: Range and Median of State Medicaid Program Payment Rates

                                                                                                Rates in States
                                                                   Competitive Bidding
      HCPCS                                                                                   Without Competitive
                                                                        Rates
                                              Description                                          Bidding
      Code
                                                                         Range    Median           Range     Median

       T4521            Adult-sized disposable incontinence         $0.32–$0.53     $0.40     $0.41–*$1.69     $0.62
                                  product, brief/diaper, small

       T4522            Adult-sized disposable incontinence         $0.32–$0.53     $0.41     $0.46–*$1.63     $0.66
                               product, brief/diaper, medium

       T4523            Adult-sized disposable incontinence         $0.39–$0.65     $0.53     $0.50–*$2.06     $0.80
                                  product, brief/diaper, large

       T4524            Adult-sized disposable incontinence         $0.46–$1.05     $0.65     $0.50–*$2.68     $0.90
                           product, brief/diaper, extra large

       T4529        Pediatric-sized disposable incontinence         $0.24–$0.52     $0.25    $0.25–*$1.25      $0.49
                        product, brief/diaper, small/medium

       T4530        Pediatric-sized disposable incontinence         $0.36–$0.53     $0.39     $0.36–*$1.86     $0.55
                                  product, brief/diaper, large

       T4533           Youth-sized disposable incontinence          $0.33–$0.53     $0.39     $0.39–*$1.84     $0.62
                                       product/brief/diaper

       T4535              Disposable liner/shield/guard/pad/        $0.18–$0.50     $0.29     $0.15–*$1.26     $0.43
                             undergarment, for incontinence

       T4543              Disposable incontinence product,                          $1.50      $0.41–$4.32     $1.44
                                                                    $0.70–$1.89
                                      brief/diaper, bariatric
    * Indicates imputed rate. 

    Source: OIG analysis of State Medicaid program survey responses, 2013.




                    The State Medicaid programs’ 2012 rates for each of the nine types of
                    supplies reviewed can be found in Appendix A and Appendix B.




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)        10
                   State Medicaid programs could have saved $62 million in 2012
                   using the median competitive bidding rate
                   State Medicaid programs paid $266 million for nine types of incontinence
                   supplies in 2012. If State Medicaid programs had paid suppliers at the
                   median rate among the five States that implemented competitive bidding,
                   they could have paid 23 percent less, saving $62 million. By HCPCS
                   code, potential savings ranged from $2 million to $15 million. For
                   example, using the median competitive bidding rate for T4522 across
                   States that paid more than this rate in 2012 would have yielded a savings
                   of $12 million, or 27 percent. By State, potential savings ranged from less
                   than $1,000 (Hawaii) to $7.5 million (California). Six States accounted
                   for 50 percent of the potential savings (California, Illinois, New York,
                   North Carolina, Pennsylvania, and Virginia).

                   State Medicaid programs reported both positive
                   outcomes and initial challenges with respect to
                   competitive bidding
                   Although the primary motivation to implement competitive bidding is to
                   reduce expenditures, States reported a variety of other positive outcomes.
                   At the same time, they experienced initial challenges when implementing
                   their competitive bidding programs. Finally, six State Medicaid programs
                   attempted to establish competitive bidding for incontinence supplies, but
                   did not ultimately implement this cost-control measure.
                   State Medicaid programs reported increased beneficiary
                   access, product quality, and program control
                   State officials reported that their competitive bidding programs resulted
                   not only in cost savings, but also in a variety of other positive outcomes.
                   Officials from Maine and Michigan noted that having supplies delivered to
                   beneficiaries’ residences increased access, particularly for beneficiaries
                   with transportation challenges. Wisconsin officials similarly noted that
                   mail delivery increases the reliability of access to supplies. In
                   New Hampshire, competitive bidding increased the number and types of
                   supplies available to beneficiaries.
                   Secondly, officials from four States told us that having one supplier
                   ensured consistency of product quality. These officials explained that,
                   prior to competitive bidding, suppliers provided products of varying
                   quality (e.g., absorbency and performance). In Wisconsin, there was an
                   increase in the quality of supplies that the contracted vendor was able to
                   offer in comparison to suppliers’ offerings prior to competitive bidding.
                   Wisconsin officials stated that prior to competitive bidding, some local


State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)   11
                   suppliers would not accept the State’s fee-schedule rates for higher quality
                   products.
                   Lastly, State officials cited better overall control of providing incontinence
                   supplies, such as reduced opportunity for beneficiaries to fraudulently use
                   multiple suppliers to obtain an excess of supplies, fewer requests for prior
                   authorizations, and centralized customer service for complaint resolution.
                   Wisconsin officials noted that complaints are now resolved in a more
                   streamlined manner than they were prior to competitive bidding.
                   State Medicaid programs reported encountering initial
                   challenges with their competitive bidding programs
                   Officials from three State Medicaid programs reported complaints from
                   beneficiaries about the specific brand or quality of supplies that they
                   received following the implementation of competitive bidding. All States
                   included more than one brand of product for each supply type, so that
                   beneficiaries could choose another brand if one did not meet their needs.
                   In addition, for brands not offered with the contract, State Medicaid
                   programs allowed prior authorization if a physician provided justification
                   of the medical necessity for that brand.
                   One State reported that having to transfer beneficiary information when
                   the State switched from one vendor to another created a challenge to
                   administering the State’s competitive bidding program. Michigan
                   awarded a competitive bidding contract to a new vendor after the initial
                   vendor’s contract expired. State officials mentioned the need to ensure
                   coordination of the transfer of beneficiary information when ending a
                   contract with one vendor and awarding a new contract to a different
                   vendor.
                   Six State Medicaid programs attempted to establish
                   competitive bidding programs but did not implement them
                   Another six State Medicaid programs attempted to establish competitive
                   bidding programs, but did not implement them because of factors such as
                   supplier opposition.16 As a result, each of the six States implemented
                   cost-control measures other than competitive bidding. Three States
                   reduced fee schedules, two States implemented quantity limitations, and
                   one State implemented both. Like the States that successfully
                   implemented competitive bidding, three States reported that engaging
                   suppliers and stakeholders was helpful to implement other measures that
                   would meet the States’ cost-saving goals. For example, the Texas


                   16
                      The six State Medicaid programs were Florida, North Carolina, Ohio, South Carolina,
                   Texas, and Washington.

State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)   12
                   Medicaid program held a meeting with suppliers to discuss the
                   reimbursement rate for each HCPCS code on the basis of supplier cost. As
                   a result, the Texas Medicaid program reduced its fee schedules by an
                   average of 8 percent.




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)   13
                   CONCLUSION AND RECOMMENDATION
                   All State Medicaid programs implemented cost-control measures such as
                   quantity limitations or reductions of fee-schedule amounts for
                   incontinence supplies. Five State Medicaid programs implemented
                   competitive bidding programs, reporting savings of up to 50 percent.
                   States reported other positive outcomes resulting from competitive
                   bidding, such as increased beneficiary access to supplies, increased
                   product quality, and State Medicaid program control of providing supplies.
                   A few States experienced initial challenges when implementing
                   competitive bidding and reported ways to reduce or alleviate these
                   challenges.
                   Cost savings will become increasingly important as the Medicaid
                   population expands with the implementation of the Affordable Care Act.
                   State Medicaid programs paid $266 million for nine types of incontinence
                   supplies in 2012. If State Medicaid programs had paid suppliers at the
                   median competitive bidding rate, they could have paid 23 percent less,
                   saving $62 million.
                   We recommend that CMS:
                   Encourage State Medicaid programs to seek further cost
                   savings for disposable incontinence supplies
                   CMS could accomplish this by sharing information from State Medicaid
                   programs that have reduced fee-schedule amounts or implemented
                   competitive bidding programs with State Medicaid programs that have
                   not. We recognize that not all State Medicaid programs have the level of
                   incontinence-supply expenditures to warrant their own competitive
                   bidding programs. State Medicaid programs may be able to obtain lower
                   rates for incontinence supplies by joining an existing contract of another
                   State Medicaid program or meeting with suppliers to negotiate lower
                   fee-schedule rates.




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)   14
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with OIG’s recommendation and noted that it is available
                   to provide technical assistance to States at their request. CMS further
                   stated that on August 2, 2013, it issued an Informational Bulletin to State
                   Medicaid programs and other interested parties about Medicare’s
                   Competitive Bidding Program.
                   The full text of CMS’s comments is provided in Appendix C.




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)   15
                     APPENDIX A
                     State Medicaid Program Rates for HCPCS Codes T4521,
                     T4522, T4523, T4524, and T4529

                                                                         HCPCS Code
      State
                                            T4521             T4522              T4523              T4524              T4529

      Alabama                                $0.80             $0.80              $0.80              $1.00              $0.40
      Alaska                                 $0.56             $0.76              $0.91              $1.06              $0.56
      Arkansas                               $0.58             $0.70              $0.90              $0.93       $0.30/$0.38
      California                             $0.44             $0.50              $0.66              $0.66                N/A
      Connecticut                            $0.47             $0.52              $0.70              $0.73              $0.48
      Colorado                               $0.62             $0.71              $0.85              $0.87              $0.43
      Delaware                               $0.50             $0.50              $0.74              $0.88              $0.25
      District of Columbia                   $0.90             $0.90              $0.90              $0.90              $0.90
      Florida                                $0.63             $0.69              $0.80              $0.90              $0.53
      Georgia                                  N/A               N/A                N/A                N/A              $0.37
      Hawaii                                 $0.62             $0.66              $0.66              $0.69                N/A
      Idaho                                  $0.48             $0.60              $0.72              $0.77              $0.41
      Illinois                               $0.49             $0.60              $0.67              $0.88              $0.54
      Indiana                         $0.38/$0.40       $0.33/$0.38        $0.43/$0.47        $0.56/$0.57        $0.24/$0.25
      Iowa                                   $0.77             $0.78              $1.00              $1.11              $0.77
      Kansas                                 $0.70             $0.80              $0.90              $0.90              $0.45
      Louisiana                              $0.50             $0.60              $0.87              $0.87              $0.50
      Maine                                  $0.36            $0.413            $0.534             $0.647              $0.245
      Maryland                               $0.66             $0.66              $0.93              $1.04              $0.60
      Massachusetts                          $0.46             $0.53              $0.71              $0.74              $0.79
      Michigan                               $0.53             $0.53              $0.65              $1.05              $0.52
      Minnesota                       $0.63/$0.80       $0.72/$0.94        $0.80/$1.13        $0.92/$1.38               $0.44
      Mississippi                            $0.55             $0.65              $0.95              $0.95              $0.55
      Missouri                               $0.50             $0.50              $0.50              $0.50              $0.50
      Nebraska                               $0.81             $0.88              $0.98              $0.98              $0.75
      Nevada                                 $0.56             $0.60              $0.80              $0.96              $0.43
      New Hampshire                   $0.32/$0.43       $0.32/$0.47        $0.39/$0.57        $0.46/$0.65                 N/A
      New Jersey                             $0.63             $0.63              $0.63              $0.81              $0.45
      New Mexico                             $0.65             $0.53              $0.98              $0.98              $0.65
      New York                               $0.47             $0.51              $0.68              $0.72              $0.30
      North Carolina                         $0.74             $0.78              $0.86              $0.86              $0.49
      Ohio                                   $0.55             $0.63              $0.71              $0.79              $0.40
      Oklahoma                               $0.78             $0.85              $0.96              $1.13                N/A
                                                                                                        continued on next page
      Note: “N/A” indicates that no fee-schedule rate was reported for the item. Seven States—Arizona, Kentucky, Montana,
      North Dakota, South Dakota, Tennessee, and West Virginia—are not included in the table because these States did not
      report specific fee-schedule rates for any of the nine types of supplies.
      * Some States reported more than one fee-schedule rate for a given item. For these instances, we show the different rates
      with a slash (/) in between.




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)                            16
                     State Medicaid Program Rates for HCPCS Codes T4521,
                     T4522, T4523, T4524, and T4529 (Continued)

                                                                         HCPCS Code
      State
                                          T4521             T4522             T4523    T4524             T4529

      Oregon                               $0.48             $0.64            $0.71     $0.76            $0.48
      Pennsylvania                         $0.63             $0.65            $0.72     $0.72            $0.55
      Rhode Island                         $0.95             $0.95            $0.95     $0.95            $0.95
      South Carolina                       $0.47             $0.46            $0.56     $0.73            $0.45
      Texas                                $0.53             $0.56            $0.60     $0.75            $0.38
      Utah                                 $0.62             $0.71            $0.83     $0.96            $0.36
      Vermont                              $0.67             $0.67            $0.67     $1.07            $0.49
      Virginia                      $0.41/$0.51       $0.50/$0.65        $0.88/$0.94    $1.13            $0.51
      Washington                           $0.44             $0.54            $0.65     $0.78            $0.41
      Wisconsin                            $0.43             $0.44            $0.58     $0.65            $0.40
      Wyoming                              $0.59             $0.68            $0.80     $0.92            $0.60
      Source: OIG analysis of Medicaid program survey responses, 2013.




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)           17
                      APPENDIX B
                      State Medicaid Program Rates for HCPCS Codes T4530,
                      T4533, T4535, and T4543

                                                                         HCPCS Code
         State
                                             T4530             T4533                          T4535              T4543

         Alabama                              $0.50                N/A                            N/A              $2.00
         Alaska                               $0.59              $0.60                          $0.43              $4.32
         Arkansas                             $0.58              $0.60                   $0.43/$0.69               $1.07
         California                              N/A             $0.42     $0.24/$0.36/$0.43/$0.48                   N/A
         Connecticut                          $0.60              $0.43                          $0.34              $1.30
         Colorado                             $0.43              $0.55                          $0.41              $0.41
         Delaware                             $0.37              $0.47                          $0.33                N/A
         District of Columbia                 $0.90                N/A                          $0.50              $0.90
         Florida                              $0.58              $0.65                          $0.44              $1.52
         Georgia                              $0.37              $0.64                            N/A                N/A
         Hawaii                                  N/A               N/A                            N/A                N/A
         Idaho                                $0.47              $0.48                          $0.34              $0.76
         Illinois                             $0.67              $0.49                          $0.43              $1.50
         Indiana                        $0.36/$0.37       $0.35/$0.37                    $0.20/$0.22        $1.50/$1.75
         Iowa                                 $0.87              $0.87                          $0.40                N/A
         Kansas                               $0.48              $0.72                          $0.15                N/A
         Louisiana                            $0.50              $0.55                            N/A              $1.46
         Maine                               $0.385            $0.389                          $0.497              $0.70
         Maryland                             $0.60              $0.64                          $0.39                N/A
         Massachusetts                        $0.83              $0.46                          $0.46                N/A
         Michigan                             $0.53              $0.53                          $0.34              $1.72
         Minnesota                            $0.50       $0.69/$1.09                    $0.41/$0.69               $2.34
         Mississippi                          $0.55              $0.60                            N/A                N/A
         Missouri                             $0.50              $0.50                            N/A              $0.50
         Nebraska                             $0.81              $0.81                          $0.44              $1.01
         Nevada                               $0.47              $0.56                          $0.37              $1.95
         New Hampshire                           N/A      $0.33/$0.44                    $0.18/$0.32        $0.71/$0.94
         New Jersey                           $0.45              $0.63                            N/A                N/A
         New Mexico                           $0.45              $0.98                            N/A                N/A
         New York                             $0.36              $0.39                          $0.28              $1.38
         North Carolina                       $0.55              $0.67                          $0.34              $1.29
         Ohio                                 $0.40              $0.46                          $0.40              $2.12
         Oklahoma                                N/A               N/A                          $0.59                N/A
                                                                                                   continued on next page
          Note: “N/A” indicates that no fee-schedule rate was reported for the item. Seven States—Arizona, Kentucky,
          Montana, North Dakota, South Dakota, Tennessee, and West Virginia—are not included in the table because these
          States did not report specific fee-schedule rates for any of the nine types of supplies.
         * Some States reported more than one fee-schedule rate for a given item. For these instances, we show the
         different rates with a slash (/) in between.




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)                      18
                     State Medicaid Program Rates for HCPCS Codes T4530,
                     T4533, T4535, and T4543 (Continued)

                                                                     HCPCS Code
             State
                                                T4530             T4533           T4535          T4543

             Oregon                              $0.48             $0.48           $0.64            N/A
             Pennsylvania                        $0.55             $0.65           $0.76          $1.62
             Rhode Island                        $0.95             $0.95           $0.77          $2.85
             South Carolina                      $0.45             $0.47           $0.21          $1.27
             Texas                               $0.48             $0.53           $0.27          $0.94
             Utah                                $0.52             $0.71           $0.44          $2.50
             Vermont                             $0.43             $0.67           $0.43          $1.44
             Virginia                            $0.59               N/A           $0.34            N/A
             Washington                          $0.43             $0.44           $0.32          $2.21
             Wisconsin                           $0.44             $0.46           $0.29          $1.89
             Wyoming                             $0.85             $1.07           $0.75            N/A
             Source: OIG analysis of Medicaid program survey responses, 2013.




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)    19
                      APPENDIXC
                      Agency Comments


               DEPARTMENT OF HEALTH & HUM;\N SERVICES                                    Centers lor Medicare & Medicaid Services
               ---­ ------····--···---·--···---··------···--·
                                                                                         Administrator
                                                                                         Washongton. DC 20201




              DATE:
                                NOV 19 2013
              TO: 	          David R. Levinson
                             Inspector General

              FROM: 	        Marilyn Tavenner
                                                 /S/
                             Administrator

              SUBJECT: 	 Office of Inspector General (OIU) Draft Report: "State Medicaid Program
                         Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-0071 0)


              The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
              comment on the above-referenced draft report. The purpose of this report was to survey states to
              determine how many states implemented or attempted to implement cost-control measures, such
              as competitive bidding. for incontinence supplies.

              The O!U found that all state Medicaid programs implemented cost-control measures such as
              quantity limitations or fee-schedule reductions for incontinence supplies. Additionally, the
              report tinds that five state Medicaid programs implemented competitive bidding programs with
              the result of achieving significant savings.

              OIG Recommendation

              The O!G recommends that CMS encourage state Medicaid programs to seck further cost savings
              for disposable incontinence supplies.

              CMS Response

              We concur with OIG's recommendation and note that we are available to provide technical
              assistance to states, at their request. Additionally. on August 2, 2013. CMS issued an
              Infom1ational Bulletin entitled Medicare Competitive Bidding Program for Durable !vfedical
              Equipment and Coordination of Benejitsfor Beneficiaries Eligible for Afedicare and A,fedicaid (Dual
              Eligibles). which provided information to state Medicaid agencies and other interested parties about
              Medicare's Competitive Bidding Program.

              The CMS thanks O!G for their continued support in reviewing states' efforts to control costs for
              disposable incontinence supplies,




State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)                              20
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Brian T. Whitley, Regional 

                   Inspector General in the Kansas City regional office. 

                   Tricia Fields served as the team leader for this study. Other Office of 

                   Evaluation and Inspections staff from the Kansas City regional office who 

                   conducted the study include Jordan Clementi and Brian T. Pattison. 

                   Central office staff who provided support include Clarence Arnold, 

                   Kevin Manley, and Christine Moritz. 





State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies (OEI-07-12-00710)   21
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
